<html>
<title> - OVERSIGHT OF THE CONSERVATION RESERVE PROGRAM</title>
<body><pre>[Senate Hearing 109-489]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-489
 
             OVERSIGHT OF THE CONSERVATION RESERVE PROGRAM

=======================================================================

                                HEARING

                               before the

    SUBCOMMITTEE ON FORESTRY, CONSERVATION, AND RURAL REVITALIZATION

                                 of the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION


                               __________

                             JULY 27, 2005

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-640                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

              Steven Meeks, Majority Legislative Director

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Oversight of the Conservation Reserve Program....................    01

                              ----------                              

                        Wednesday July 27, 2005
                    STATEMENTS PRESENTED BY SENATORS

Crapo, Hon, Mike, a U.S. Senator from Idaho, Chairman, 
  Subcommittee on Forestry, Conservation, and Rural 
  Revitalization, Committee on Agriculture, Nutrition, and 
  Forestry.......................................................    01
Lincoln, Hon. Blanche, a U.S. Senator from Arkansas..............    05
Salazar, Hon. Ken, a U.S. Senator from Colorado..................    08
                              ----------                              

                               WITNESSES
                                Panel I

Little, James, Administrator, Farm Service Agency, U.S. 
  Department of Agriculture, Washington, DC......................    02

                                Panel II

Foster, Dan, Director, Georgia Department of National Resources, 
  Wildlife Resources Division, Social Circle, Georgia............    19
Harden, Krysta, Chief Executive Officer, National Association of 
  Conservation Districts (NACD), Washington, DC..................    16
Keith, Kendall W., President, National Grain and Feed 
  Association, Washington, DC....................................    14
Nelson, Jeffery W., Director of Operations, Ducks Unlimited, 
  Inc., Great Plains Regional Office, Bismark, North Dakota......    18
Reese, Sherman, Presedent, National Association of Wheat Growers, 
  Echo, Oregon...................................................    12
                              ----------                              

                                APPENDIX

Prepared Statements:
    Foster, Dan..................................................    92
    Harden, Krysta...............................................    79
    Keith, Kendall W.............................................    68
    Little, James................................................    34
    Nelson, Jeffery W............................................    83
    Reese, Sherman...............................................    64
Document(s) Submitted for the Record:
    Environmental Defense and the Nature Conservation............   102


             OVERSIGHT OF THE CONSERVATION RESERVE PROGRAM

                              ----------                              


                        WEDNESDAY, JULY 27, 2005

                                       U.S. Senate,
         Subcommittee of Forestry, Conservation, and Rural 
Revitalization, of the Committee on Agriculture, Nutrition, 
                                              and Forestry,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m., in 
SR-328A, Russell Senate Office Building, Hon. Mike Crapo, 
chairman of the subcommittee, presiding.
    Present or submitting a statement: Senators Crapo, Lincoln, 
and Salazar.

    STATEMENT OF HON. MIKE CRAPO, A U.S. SENATOR FROM IDAHO,

    Senator Crapo. Good morning. The hearing will come to 
order. This is the hearing on the Conservation Reserve Program 
oversight by the Senate Subcommittee on Forestry, Conservation, 
and Rural Revitalization.
    For the past 20 years CRP has been a tool for farmers and 
ranchers to voluntarily achieve their conservation goals. 
Conservation programs such as the CRP have helped producers 
protect wetlands, water quality, and wildlife habitat while 
meeting environmental standards. Today the CRP is the Nation's 
largest Federal program for private lands conservation, with an 
annual budget of roughly $2 billion and a current enrollment of 
almost 35 million acres. With more than 22 million acres under 
CRP contracts that are scheduled to expire in 2007 and 2008, 
and the upcoming farm bill reauthorization, it is timely to 
address the long-term direction of the program, including how 
to deal with expiring contracts and re-enrollments and the 
effect of the CRP on rural economies.
    Additionally, this hearing, as well as the hearing held 
before this subcommittee yesterday, also provides an excellent 
opportunity to review how programs involving incentives for 
landowners can help endangered species and speed recovery 
efforts. For example, CRP has been credited as a major tool for 
the restoration of threatened and endangered species across the 
United States, including salmon and the sharp tailed grouse in 
Idaho. The most immediate concern, however, is the scheduled 
expiration of millions of CRP acres between 2007 and 2010. 
Sixteen million acres will expire in 2007 alone.
    Last year, the USDA requested public comment on several 
long-term policy questions involving CRP. These included 
whether to stagger CRP contract expirations, conduct a 
competitive re-enrollment process, and modify the environmental 
benefits index.
    Today we are going to hear from a number of witnesses with 
differing views on how to address the expirations and the 
overall impact of the program on rural communities. Some 
organizations and individuals have submitted comments to the 
USDA urging an increase in CRP's environmental benefits, 
particularly for wildlife, by re-enrolling the expiring acres 
with the highest environmental value, bringing in new 
enrollments that significantly benefit wildlife, managing all 
CRP acres to maximize wildlife benefits, and stopping 
inappropriate CRP plantings.
    At the same time, others have raised concerns that retiring 
land in rural, largely agricultural communities is negatively 
impacting local economies by resulting in fewer farmers and 
farm-supply businesses in those areas. The would like to see a 
competitive re-enrollment process to ensure that only the most 
environmentally sensitive land is enrolled in the long-term 
contracts.
    I welcome our witnesses and I look forward to hearing this 
discussion today. The comments of the witnesses today will help 
to ensure that the CRP lives up to its potential.
    Our witnesses today include James Little, the Associate 
Administrator of the Farm Service Agency, as our first panel. 
Following Mr. Little, we will hear from our second panel, which 
I will introduce at that time, and which includes the farm, 
conservation, and wildlife interests of the country.
    I do want to say that we are expecting that Senator Lincoln 
may be able to attend here briefly, and if she does make it in, 
I will probably interrupt and let her make an opening statement 
at that time, if she chooses to do so, because her schedule 
today is very time-sensitive.
    With that, why don't we go ahead and get started. I will 
say to you, Mr. Little, as well as to all the witnesses, we 
like to encourage you to remember the instructions to stick to 
the 5 minutes. As I always say to our witnesses, it is very 
difficult to keep to 5 minutes because I know that very few 
people, including myself, can say everything they want in 5 
minutes. But please be assured that the reason we want to hold 
it to 5 minutes for your initial presentation is because we do 
want to have opportunity for give-and-take in discussion, and 
you will be able to get a lot of your points in in discussion 
as well.
    So with that, Mr. Little, why don't you go ahead and 
proceed?

STATEMENT OF JAMES LITTLE, ADMINISTRATOR, FARM SERVICE AGENCY, 
    UNITED STATES DEPARTMENT OF AGRICULTURE, WASHINGTON, DC

    Mr. Little. Thank you. Good morning, sir.
    Mr. Chairman, thank you for the opportunity to appear 
before you today to discuss the Conservation Reserve Program. 
The President recognizes that, for farmers and ranchers--and I 
quote--every day is Earth Day. To support this ideal, the 
President welcomed a strong conservation title in the 2002 farm 
bill to respond to a broad range of emerging conservation 
challenges faced by our Nation.
    CRP assists farmers and ranchers in reducing soil erosion, 
improving water quality and air quality, conserving wetlands, 
and enhancing wildlife habitat. CRP participants voluntarily 
plant long-term resource-conserving vegetative covers on 
environmentally sensitive land. In return, FSA provides 
financial assistance.
    CRP enrolls environmentally sensitive land on a competitive 
basis during general signups on a non-competitive, continuous 
basis. An important subset of the program is the Conservation 
Reserve Enhancement Program, which uses State, Federal, and 
private partnerships to addresses targeted, State-specific 
conservation issues. We are gradually covering the whole 
spectrum of the country, as you can see from the first chart. 
Overall, 800,000 participants have enrolled nearly 35 million 
acres in CRP, producing widespread environmental benefits. The 
chart on the easel shows you where these are located.
    Of the 35 million acres currently enrolled in CRP, 16 
million, as you said, are scheduled to expire in 2007 and 
another 12 million would expire in the following 3 years. You 
can see in the second chart where the concentration of these 
acres are located. Last August, President Bush announced that 
the USDA will offer re-enrollments and extensions on the 
expiring and existing acres. He also announced initiatives to 
increase quail habitat and restore non-floodplain wetlands, 
including prairie potholes and playa lakes, which FSA is 
diligently working to implement.
    FSA issued a request for public comment in the Federal 
Register on how re-enrollments and extensions should be 
administered. In the 5,000-plus comments that we received, the 
public expressed broad support for the program, but they did 
have varied ideas for implementation. FSA also held a public 
meeting in June 2005 to obtain additional input. We are 
analyzing all public comments and expect to announce procedures 
governing the re-enrollment and extensions later this year.
    Also last August, the President announced the Northern 
Bobwhite Quail Initiative to increase quail numbers by 750,000 
birds annually and the Wetlands Restoration Initiative to 
restore 250,000 acres or larger wetlands outside of the 100-
year floodplains.
    To make CRP as well as FSA's total program portfolio more 
efficient and effective, FSA is aggressively modernizing its 
business case and retooling its information and automation 
infrastructure. We are already showing much progress. For 
instance, FSA used Web-based and geographic information 
technology systems coupled with NRCS's soils data base in the 
last two general CRP signups, resulting in a significantly 
compressed signup period with higher quality control and more 
efficiency than any previous signup.
    As we approach CRP's 20th anniversary, CRP has clearly had 
significant positive impacts on the environment, including the 
improvement of habitat for endangered and declining species. 
Our future plans, especially on how to re-enroll and extend 
expiring acres, will enhance the extraordinary benefits this 
program has always provided.
    For the committee's information, I have attached detailed 
CRP performance data and other program information.
    This concludes my oral statement. I will be glad to answer 
any questions that you or other members of the committee might 
have.
    [The prepared statement of Mr. Little can be found in the 
appendix on page 2.]
    Senator Crapo. Thank you very much, Mr. Little.
    In your testimony, you talked about changes that have been 
made to the Environmental Benefits Index since it was developed 
to evaluate the environmental benefits as well as the cost of 
enrolling in the program. And some, including witnesses who 
will be here today, have urged further enhancements to the EBI 
prior to accepting re-enrollments or new contracts. Are you 
planning to make such modifications or any kinds modifications 
to the EBI.
    Mr. Little. Well, as we move forward in implementing the 
President's commitment to re-enrollment existing acres and 
expiring acres, we are evaluating that as we speak. As a matter 
of fact, one of the issues that is included in the EBI is cost. 
We are in the process now working with NRCS to reevaluate and 
reset our local rental rates because we find in some portions 
of the country some rental rates are higher than the local 
market, some are lower. So we're looking at cost as one item. 
We are also looking at making sure that the way we establish 
the EBI, right now it is basically using water quality, soil 
erosion, and wildlife, along with cost. Based on the comments, 
we will be taking a look at whether or not we are going to redo 
the EBI as we move forward in establishing the President's 
commitment.
    Senator Crapo. Thank you. Do you also expect to make other 
policy changes, such as adjusting the rental rates or 
rebalancing the purposes of the program?
    Mr. Little. Well, I mean, that--you know, as you mentioned, 
that is one of the, some of the comments that we have been 
hearing. By using the three criteria--wildlife, soil erosion, 
and water quality--sometimes does focus it into areas, more 
specific areas. If we were to look primarily at water quality, 
there might be a shift. If we looked at soil erosion, there 
might be a shift. If we just looked at wildlife, there might be 
a shift. So we are taking all of those into consideration as we 
move forward in making a decision.
    Senator Crapo. All right, thank you.
    As you are probably aware, yesterday we held a hearing in 
this committee with regard to the conservation programs of the 
farm bill in general and how they might be able to be 
coordinated more effectively with species recovery and 
assisting landowners to have the proper incentives to implement 
obligations under the Endangered Species Act. In your 
testimony, you mention some of the specific ways in which CRP 
has increased wildlife, such as the example of increasing the 
numbers of ducks by over 2 million.
    In this regard, I think it is vital that we develop the 
tools that allow us to quantify the benefits of our 
conservation programs. And at the hearing yesterday, Chief 
Knight shared that the NRCS is working to have some interim 
work done soon on the Conservation Effects Assessment Program, 
CEAP. And I recognize that such work takes a lot of time to 
ensure that it is done right, but I want to reiterate the 
importance of having something in place that helps us to tell 
the story of conservation benefits in numbers and science, not 
just by anecdotes. And I welcome your comments today on the 
ability of the USDA to quantify the results of the CRP as we 
prepare for the farm bill reauthorization.
    The question I have is, is the FSA working with the NRCS on 
the Conservation Effects Assessment project, and what other 
efforts is the Agency engaging in to measure these outcomes?
    Mr. Little. That is a very good question, sir. As a matter 
of fact, under CEAP, NRCS and FSA are fully cooperating 
together to provide the funds to go out into the marketplace, 
so to speak, to ensure that we do have the science to go along 
with the program. As a matter of fact, under PART, under the 
President's Accountability--under the President's PART program, 
where we have to be accountable for our programs, we have 
entered into, I would say, probably 10 or 15 research contracts 
with public institutions--the United States Geological Survey; 
ERS, the Economic Research Service--in trying to quantify the 
program. I could provide for you a list of the contracts that 
we have in place right now.
    I am just reminded that every single one of our 
Conservation Reserve Enhancement programs does has a monitoring 
and evaluation component. The ERS, as a matter of fact, has 
just recently done a study on the economic impacts on rural 
communities that the CRP has. We had a conference last year in 
Fort Collins in cooperation with the U.S. Geological Survey to 
get the wildlife groups and environmental groups to come in and 
just talk about what CRP is doing and how it is improving the 
environment. So we are doing a lot in cooperation with NRCS and 
other Federal and State and local institutions and 
universities. So I think we are providing a lot of research to 
really quantify what we are doing.
    Senator Crapo. Well, thank you very much. I just want to 
commend you for that work and encourage you to continue to work 
very closely with all the other agencies, and particularly 
NRCS, so that we can quantify these impacts. I have said a 
dozen times if I have said it once that probably the most 
unsung success story we have in environmental protection in 
this country is the farm bill, and the conservation title in 
particular. And I really believe that efforts to quantify that 
so that we can truly tell the story of what this means to the 
environment and to conservation can be assisted.
    We have been joined by Senator Lincoln, and I understand 
that you have a very tight time schedule. So I am going to turn 
the time over to you for an opening statement. If you want to 
ask any questions, that you can do as well. Senator Lincoln is 
a great friend and an outstanding Senator. We work very closely 
together, and I am proud of that, and we are going to work 
closely together on this issue, too.
    Senator Lincoln. We are.

STATEMENT OF HON. BLANCHE LINCOLN, A U.S. SENATOR FROM ARKANSAS

    Senator Lincoln. Thank you, Mr. Chairman, and thanks for 
all your leadership on this issue. I do apologize that I will 
have to probably leave at some point due to my schedule, but 
that certainly is no indication of my lack of interest in this 
issue. And the chairman knows that. He knows I am dedicated to 
working with him.
    We do have, I think, an unusual opportunity to not only 
build but enhance relationships that now exist among Government 
entities, and the tremendous work that the farm bill has 
allowed the Department of Agriculture to experience along with 
our environmental groups, our conservation groups, certainly 
recreation--I see Ducks Unlimited out there--so many different 
groups that can partner to make a real difference in the 
preservation of wildlife as well as our habitats. So it is a 
great pleasure on my part to be here again for the second 
consecutive day to conduct a hearing on another important 
topic, and that is the future of the Conservation Reserve 
Program.
    Yesterday we did touch broadly on what our conservation 
programs provide our farmers, our conservationists, and 
certainly our society as a whole. And today, under the 
chairman's leadership, we look more closely at the future of 
the Conservation Reserve Program, which is such a vital 
component of our conservation efforts nationally. As Chairman 
Crapo noted, the Conservation Reserve Program is the Federal 
Government's largest private land retirement program. And 
obviously, the current enrollment numbers top 34 million acres. 
And thanks to the 2002 farm bill, as he mentioned, we can 
expect that number to increase, nearing the program's 
authorized cap of 39.2 million acres.
    We can also expect about 80 percent of those CRP contracts 
to expire from 2007 to 2010, which is why we are here today and 
will probably be the basis for a lot of my questions, because I 
am getting them from my constituents. Because they love these 
programs. They see what they do not only for wildlife and 
conservation, but they see what they do for their farming 
operations and what a critical role that they play.
    We have certainly got some distinguished witnesses and 
panels to discuss how to handle the expiring contract and the 
re-enrollment of nearly 28 million acres, 16 million of those 
coming in 2007 alone. So that is certainly a daunting prospect 
in terms of what we have ahead of us and the job that you have 
to do. We want to be helpful and certainly as productive as we 
can in providing you the assistance that we need to continue 
such a vital program.
    For my State, we are anticipating contracts on nearly 
90,000 acres to expire from 2007 to 2010, and almost half of 
the total CRP acreage in our entire State. So we have a lot 
ahead of us. And again, for a program that is so well received 
by our agricultural producers and our State in general, we are 
going to be really focused on making sure that we do it 
correctly and working with you.
    I would also like to acknowledge USDA's effort with regard 
to this issue. Just as Chairman Crapo and I are doing today, 
USDA has begun an extensive process in seeking out the interest 
groups and beginning the investigation on how to best handle 
that situation. We are very grateful to you for that. We want 
to be of all the assistance we can. I know that you all have 
already begun those listening sessions with interest groups--as 
I mentioned, Farm Bureau, Ducks Unlimited, EPA, the National 
Association of Conservation Districts--just multiple groups 
that are out there. And that is so critical, to involve 
everybody, because I think in order to do it correctly, having 
as much input as we possibly can is going to be vital in making 
this process a success.
    So I look forward to the outcome of all of the combined 
efforts. Certainly hearing from you all today and submitting 
questions, if I may, but also maybe just touching on a few 
here, if we can, before I have to excuse myself.
    And I guess, in your opinion, Mr. Little, one of the things 
that we were hoping to get some guidance on as quickly as we 
can is what contracts should be re-enrolled, extended, or left 
to expire? Is there some kind of criteria? You all may have 
already touched on that, Mr. Chairman, I don't know. But some 
of the ideas coming from you all in terms of what will be used 
as those evaluations are made.
    And what environmental objectives should be considered? I 
know, certainly, from your standpoint you may have that, but 
there will be other panelists, later panelists that will be 
able to answer those questions, too.
    And I guess one more question would be should the 
extensions and the re-enrollments be limited to just 25 percent 
cropland limitations, or some lower numbers, to provide room 
for some of the continuous CRP and WRP enrollments? And what 
about updating rental rates and how we apply that?
    Those are just a few of my questions. There are a few more 
that I will submit for the record. But any of those you would 
like to touch on now would be enormously helpful in guiding me.
    Mr. Little. OK, thank you, Senator.
    Senator Lincoln. Thank you.
    Mr. Little. Yes, as we are--we have been doing a lot of 
collaboration with the environmental groups, the Farm Bureau, 
wildlife groups, the whole gamut. Took over 5,000 comments in 
last year through a Federal Register notice. We had a listening 
session this past June to really get the public's input on how 
we should do the re-enrollments and extensions as the President 
promised last August. We have several options on the table. I 
can assure you that we have not come to a conclusion on any of 
them yet. We are looking at, you know, using the EBI to make a 
determination as to what contracts should be enrolled, whether 
they should all be enrolled, re-enrolled; should some of them 
be staggered; should some of them just be extended for a year 
or two. So we are--you know, all of those things are on the 
table and we still have not come to a conclusion as to exactly 
where we are going to go.
    The environmental decisions, as you probably know, are EBI 
currently looks specifically at soil erosion, wildlife 
benefits, and water quality. We will be looking at whether or 
not we are going to reevaluate that as we move forward also, in 
both the re-enrollments, extensions, whatever.
    With regard to rental rates, we are already working with 
NRCS to update rental rates. Whether or not and/or how we 
utilize those updated rental rates in the extensions and re-
enrollments, that still remains to be seen. Those decisions 
haven't been made as well.
    With respect to the cap, the 25 percent cap is established 
in law. Obviously we can't exceed that. The only way we can 
exceed the 25 percent cap--and I know that is a concern in some 
States--the only way we can extend that is if the county can 
prove that it does not affect the economy of that particular 
county and whether or not the county is having difficulty 
meeting the conservation plans that are put into place for the 
particular farmer.
    So those two things--we cannot exceed the 25 percent cap. 
We are looking at whether or not we want even to go up to the 
25 percent cap, so that we can preserve some space for future 
CREP agreements. I mean, sometimes we will run a CREP 
agreement--we can't get any new farmers into a CREP agreement 
because the county is already gotten up to the 25 percent--or 
so that we can have a general signup in the future.
    So all of those things are on the table. No decisions have 
been made. But we are taking the public comment and all of 
those issues have been raised as questions. But we will 
definitely be glad to consult with the committees before we 
make any final announcement or any final decisions.
    Senator Lincoln. Thank you, Mr. Chairman, for allowing me 
to move forward.
    I would definitely say that the committee would appreciate 
that. I certainly would. As you move through this process, if 
you could keep us apprised or certainly informed in terms of 
the things that are moving forward, I think it would be most 
helpful. We do want to be helpful to you. This is a critical 
program and we hear certainly a tremendous amount from our 
constituencies about the positive nature of these programs. We 
want to keep it that way. So any way we can be helpful.
    Mr. Little. Yes, ma'am, thank you.
    Senator Lincoln. Thank you, Mr. Little.
    Thank you, Mr. Chairman, again for your leadership.
    Senator Crapo. Thank you.
    Senator Salazar, if you have any opening statement or 
questions, you are certainly welcome to make them now.
    Senator Salazar. I do, Mr. Chairman.

  STATEMENT OF HON. KEN SALAZAR, A U.S. SENATOR FROM COLORADO

    Senator Salazar. Thank you very much and thank you for 
holding this hearing on this very important subject. And 
Ranking Member Blanche Lincoln, it is good to serve with you on 
this committee in the Senate.
    And thank you, Mr. Chairman, for the bottle of vodka 
yesterday. It is made out of Idaho potatoes, so it will----
    Senator Crapo. Highly ranked, too.
    Senator Lincoln. It is third in the world.
    Senator Salazar. Third in the world. Trying to compete with 
Colorado potatoes----
    Senator Crapo. I have to tell you, the only two vodkas that 
beat it were both Russian, and we are going to take them next 
year.
    [Laughter.]
    Senator Salazar. Let's hear it for Idaho.
    Let me just make an opening statement. This is a very 
important program for our country, very important program for 
agriculture, very important program for conservation. In my own 
State alone we have over 2 million acres that are enrolled in 
CRP, and I have known many farmers around my State that have 
been involved in the CRP program. So I think that as we look 
forward to the farm bill that it is important that this is one 
of the key components that we focus on.
    One of the greatest concerns that I have heard, and I ask 
this of you, Mr. Little, is this sense from people who live in 
the eastern parts of my State in Colorado, where we probably 
see that part of America that is the most forgotten and having 
the most difficult times, where populations in those counties 
continue to decline, where county commissioners, frankly, don't 
know whether their counties are going to be able to survive to 
the end of the decade. And what I have heard from some of my 
county commissioners in Colorado is their deep concern about 
the abuses related to--what they consider abuses with respect 
to the CRP program.
    The way that it is articulated to me, for example, in Kiowa 
County, which has a population of about 1,500 people throughout 
the county but with some very wide expanses, is that people 
from, frankly, other States have become absentee landlords of 
huge acreages within Kiowa County and that, as a result of 
that, they basically are using the CRP program simply as a 
gravy train, a revenue stream to fund their high-flying lives 
in New Orleans or New York or other places and they really 
aren't contributing back to the economy or to the community.
    And so that is just an area where I am going to be very 
focused on to try to make sure that, as we expend these huge 
amounts of dollars to help with the Conservation Reserve 
Program, that those dollars are in fact being spent also to 
help with the revitalization of rural communities. And I think 
that when you have the kind of absentee landlord situation that 
is described to me by the commissioners in Kiowa County, that 
it doesn't help with the kind of rural revitalization that I 
have talked to Under Secretary Dorr and Secretary Johanns about 
in the past.
    So maybe at this stage, if you could just maybe comment on 
that issue in general, but it is something that I very much 
look forward to working with you and with Chairman Crapo and 
Senator Lincoln as well.
    Mr. Little. That is a very interesting comment and one that 
I could certainly understand would have an impact on a local 
economy, because, you know, there are studies that have been 
made by various groups that would indicate that CRP doesn't 
have a negative on local economies. But I think that situation 
that you just mentioned could be definitely an issue that the 
Secretary and we should probably take a look at, because I can 
certainly understand how, if a farmer, you know, if somebody 
from outside of the State comes in and purchases land and all 
he does is take the Government's money as a rental payment and 
doesn't live there or make any contribution to the local 
economy, it could have a significant impact.
    But, you know, I would have to say that, you know, under 
the current program we certainly wouldn't have any authority to 
limit participation in it. I mean, if they qualify under the 
signup, we would really have no authority to say no, you can't 
come in. But it certainly is an issue that we might want to, 
you know, that the Secretary would want to take a look at it in 
future discussions during the next farm bill.
    Senator Salazar. Let me ask you, Mr. Little, in terms of 
just the facts themselves, because in every other sector 
sometimes there is a lot of myth and it is important to get 
down to the facts, does the Department of Agriculture today 
have an inventory, if you will, and an assessment of the 
ownership patterns with respect to people who are participating 
in the CRP program around the Nation, whether it is family 
farmers whose livelihood is dependent upon the farm; is it--I 
mean, what kind of understanding is it that you would portray 
to this committee today about the customers that you have for 
participating in the CRP program?
    Mr. Little. You mean profiling participants? You know, I 
would have to be honest. I don't know what types of information 
that we would keep specifically on individual farmers other 
than the information we would collect routinely on a farmer, 
such as, you know, the crops that they grow, the conservation 
applications that they might have. I know NAS, during their 
annual--I mean their every-5- or 10-year survey that they do 
for the farm census, I know they collect data, but it is not 
person-specific. But I would say that we do not include 
information on individuals, you know, whether they are a family 
farmer, other than if they take a farm loan. If they have a 
farm loan, I am not real sure that we have, you know, a data 
base right now, a rigorous data base that would be able to 
compare out data base for the farm loans to a conservation 
program or even EQIP or so forth. I don't believe we would have 
that data at this point in time. We do collect data on foreign 
residency, but I don't believe on domestic.
    Senator Salazar. And is that because you lack the authority 
now at USDA to collect that information?
    Mr. Little. I would say yes.
    Senator Salazar. Well, Chairman Crapo and Mr. Little, it is 
something that I am very interested in, because I think, at the 
end of the day, when you look at communities in Idaho and 
Kansas and Colorado, that the CRP program is one of those 
programs where we as a National Government invest significant 
resources into a program that is intended to help agriculture 
in rural communities. I understand the environmental and 
conservation benefits that come from this program as well, but 
at the end of the day, for me, what is going to be a major 
driver is whether or not the CRP program is in fact helping the 
communities of the Eastern Plains or the rural communities of 
Idaho.
    Thank you very much.
    Senator Crapo. Thank you. And those are very important 
issues. We will work with you on those.
    Mr. Little, I have a couple of more questions. The FSA 
received more than 5,000 comments, as has been indicated, on 
the long-term objectives for the CRP program last December, and 
generally it has been the practice of the Agency to make these 
comments available to the public shortly after, by posting them 
to the Agency's Web site. It is my understanding, though, that 
they are not available other than by coming in to make an 
appoint to review the entire docket in person. Is that correct? 
And if so, are these comments going to be posted on the FSA Web 
site?
    Mr. Little. I believe your statement is correct. I think 
they are so voluminous it was pretty difficult for us to be 
able to publish them on the Web site.
    Senator Crapo. OK. So at this point there is no intention 
to publish them on the Web site?
    Mr. Little. I don't believe so, no, sir.
    Senator Crapo. What is the FSA's technical assistance cost 
per acre for the CRP and for the CREP program, do you know?
    Mr. Little. I could provide that information for the 
record, sir.
    Senator Crapo. All right. I would appreciate that, if you 
would.
    And in your testimony, you also highlighted the unique 
State, Federal, and private partnerships provided through the 
CRE program, which is a subset of the CRP program. And the 
State of Idaho, as you know, is very interested right now in 
trying to get approval for its first CREP proposal, something 
which I very strongly support because it is going to help us in 
Idaho, if we can get it implemented, to help to reduce some of 
the water usage from an underground source and enable 
restoration of historic flows for other lands that we will be 
able to continue to work. We need to find ways to reduce the 
water consumption in Idaho in this particular watershed because 
of the extensive impacts of draught.
    I am particularly intrigued by the example in your 
testimony about additional in-stream water hoped to be gained 
when the CREP program is fully implemented in Nebraska. Can you 
talk a little bit about how the CREP program is assisting with 
this type of State-specific conservation need?
    Mr. Little. Yes, sir. As a matter of fact, we have been 
working very closely with the folks in Idaho trying to get that 
very important CREP agreement approved and we are anxious to 
get it to closure. I think we are fairly close, from our 
perspective.
    Senator Crapo. That is good. So you think maybe in 24 hours 
you could get that done?
    [Laughter.]
    Mr. Little. If you could provide me some assurance that the 
money is there, we will be glad to do it with you.
    Senator Crapo. All right. We will work on that.
    Mr. Little. But anyway, you know, we have gotten back with 
the State office and are waiting from your side of it before we 
can move forward on that.
    But the way it is working in Nebraska, and I believe it is 
supposed to be working relatively the same in Idaho when that 
agreement is finalized, that we would be paying irrigated 
rental rates to farmers to take their land out of production, 
which would in turn save that water that could go downstream 
into--to help the end down the stream and ground and surface 
water, which would take pressure off of the local water supply 
and then, in the end run, it would end up helping the wildlife 
at the end of the line, so to speak.
    The way we are working that program in Nebraska, and I 
assume it would be very similar in Idaho, that those, if you 
have, you know, it depends on the State, State-by-State, the 
water rights, if that water--let's say that I am going to get 
it under the program, the water that I would be using would not 
be able to be utilized by another farmer down the stream if 
they had junior water rights. So the premise of it is to reduce 
the amount of water that goes into irrigation and put it back 
into the natural supply, you know, ultimately helping the 
environment, helping the water quality down at the end of the 
line, and helping to end up improving the wildlife habitat.
    Senator Crapo. Well, thank you very much. And I do thank 
you for the specific attention that you are giving to the 
situation in Idaho. I know Idaho is not unique; in fact, I 
suspect Colorado has been facing similar circumstances. But we 
are facing very bad draught circumstances and we have had it 
almost consistently for years now, and it is not getting 
better. And although we certainly can't make it rain and snow 
as much as we would like, we can do some things to alleviate 
the pressure, and the CREP program at the Federal level is 
probably one of the best opportunities we have to help. So I 
appreciate your attention to this.
    Mr. Little. If I could comment, we are working also with 
Colorado to do a similar CREP.
    Senator Crapo. Good. Very good.
    That concludes my questions. Did you have any more for Mr. 
Little, Senator?
    Senator Salazar. Not at this time, Mr. Chairman, but I do 
hope that this is an issue that we can continue to provide some 
attention to long before we get to the actual consideration of 
the farm bill so that we have a very good understanding of what 
CRP is doing and how it is that we might be able to make 
improvements on this very important program.
    Senator Crapo. I can assure we will do that, and I think we 
do have good cooperation from the Agency. So with that, Mr. 
Little, we will excuse you, and we appreciate your attendance 
here today.
    Mr. Little. Thank you.
    Senator Crapo. We will now call up our second panel. Our 
second panel consists of Mr. Sherman Reese, who is the 
president of the National Association of What Growers. He is 
from Oregon; Mr. Kendall Keith, president of the National Grain 
and Feed Association; Ms. Krysta Harden, chief executive 
officer of the National Association of Conservation Districts; 
Mr. Jeffrey Nelson, director of operations of Ducks Unlimited, 
and he is from the Great Plains Regional Office in Bismarck, 
North Dakota; and Mr. Dan Forster, director of the Georgia 
Department of Natural Resources, Wildlife Resources Division, 
from Social Circle, Georgia.
    We welcome all of you here. And as you are taking your 
seats, I just want to remind you of the 5 minutes on the clock. 
Like I said at the outset, it is really hard to get everything 
in in 5 minutes, but I assure you we will have some time for 
discussion. And also, sometimes it is hard to pay attention to 
that clock, too, so if any of you start running over too far, I 
will just kind of tap the gavel here to remind you to look down 
at the clock.
    Why don't we go ahead in the order I introduced you, and we 
will start with you, Mr. Reese.

STATEMENT OF SHERMAN REESE, PRESIDENT, NATIONAL ASSOCIATION OF 
                  WHEAT GROWERS, ECHO, OREGON

    Mr. Reese. Thank you, Mr. Chairman and members of the 
committee. My name is Sherman Reese. I am a wheat farmer from 
eastern Oregon and I am currently serving as president of the 
National Association of Wheat Growers. I appreciate the 
opportunity to testify before you today on issues involving the 
Conservation Reserve Program, or CRP, particularly those that 
involve expiring CRP contracts and CRP contract extensions.
    My written testimony covers the history and evolution of 
the CRP, as have previous witnesses, so I need not elaborate 
further here. And as previously noted by the committee and 
others, many of the contracts on this enrolled acreage are set 
to expire between 2006 and 2008, over 22 million acres--or 
roughly an area over two-thirds the size of Idaho.
    As president of the National Association of Wheat Growers, 
I would be remiss if I didn't note the geographical 
distribution of the 34.8 million acres currently enrolled and 
those acres set to expire, as shown on these maps. Texas has 
the largest enrollment of over 3.9 million acres, with 3 
million acres set to expire by 2008. Montana is next, with 3.4 
million enrolled and 2.4 million set to expire; followed by 
North Dakota, with 3.3 million enrolled and 2.2 million 
expiring; Kansas, with 2.3 million acres enrolled and 2 million 
expiring; and Colorado, with 2.3 million acres enrolled and 1.7 
million acres expiring. Iowa is sixth, with 1.9 million acres 
enrolled and 894,000 acres expiring. And for the record, Idaho 
has 789,538 acres enrolled, with 603,651 acres expiring, ranked 
as the 12th-largest CRP-enrolled State.
    These States with the largest CRP enrollments are also 
where you find concentrated product of corn, soybeans, cotton, 
rice, grain sorghum, barley, and livestock. So most major 
production agricultural commodities also have a strong interest 
in the CRP program. I said I would be remiss if I didn't point 
out the geographic distribution, because four out of the five 
top CRP enrolled States happen to be our top wheat producing 
States--North Dakota, Kansas, Montana, and Texas--with a 
handful of others not far behind both in CRP enrollment and in 
what production. So we have an unusually high interest in the 
CRP program and its future administration.
    The large amount of expiring contract acreage presents a 
near-term problem that the committee and the Administration has 
correctly focused on. First, I appreciate the Farm Service 
Agency's recent announcement that producers with CRP contracts 
set to expire this year may extend their contracts for 1 year. 
This will apply to about 437,000 acres. We would support the 
continued use of short-term contract extensions to ease the 
administrative burdens of processing the large volume of 
contract expirations in any given year. These should be 
staggered through extensions ranging from 1 to 5 years, with 
longer extensions for lands with higher environmental benefits 
index, of EBI, rankings.
    We would discourage the use of early or automatic re-
enrollments and would strongly suggest that any acreage re-
enrolled be administered through the competitive bid system. We 
would also encourage the application of revised rental rates to 
all full-term re-enrollments to ensure that payment rates are 
up to date and reflect actual local land rental market 
conditions.
    For acreage that is not re-enrolled and is put back into 
production, we would urge USDA to restore crop-based acres that 
were lost when the land was initially enrolled in the CRP. 
Nearly 3 percent of farm program base acres currently enrolled 
in CRP are wheat-based acres. For longer-age farm bill policy 
issues, we believe we should look for ways to make adjustments 
in the EBI so CRP is focused on the most environmentally 
sensitive lands.
    We also believe we should acknowledge the interest in 
utilizing CRP for cover vegetation. That has a dual use as a 
biomass feedstock. There may be opportunities to offset CRP 
program costs through the value derived from biomass vegetative 
cover.
    As I mentioned, Montana is one of our largest wheat-
producing States as well as one of the largest CRP 
participants. The Montana Grain Growers Association recently 
completed a farm bill issue survey of their members, and I 
believe two comments received regarding CRP are instructive of 
the dichotomy within our own organization and the policy 
challenges ahead for all of us.
    Comment No. 1: ``Our president is really pushing 
conservation. We have about half our land in the CRP, and if 
not for it to help with the expenses for other land, we would 
be belly up.'' That is from McCone County.
    Comment No. 2: ``CRP has been the most devastating program 
for rural communities ever devised by USDA.'' That is from 
Richland County.
    And these comments are from neighboring counties in 
Montana, but I think they point to a need for a deliberative 
approach, which I hope Congress and the Administration will 
follow in addressing the issues regarding CRP.
    In closing, Mr. Chairman, I would suggest that the 
fundamental issue here is one of balance, determining where we 
place the fulcrum to balance equally important competing 
interests of conservation with the ability to produce a crop 
that allow the farmer to remain on the land in the first place. 
That balance was eloquently and simply stated by one of the 
great conservation presidents of the 20th century, Theodore 
Roosevelt: I ask nothing of this Nation except that it so 
behave as each farmer here behaves with reference to his own 
children. That farmer is a poor creature who skins the land and 
leaves it worthless to his children. The farmer is a good 
farmer who, having enabled the land to support himself and 
provide for the education of his children, leaves it to them a 
little better than he found it himself. I believe the same 
thing of a Nation.
    Allow us to continue farming the productive agricultural 
land to support our families and our Nation and, in turn, 
continue to create opportunities for us to leave the land a 
little better than we found it ourselves.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Reese can be found in the 
appendix on page 12.]
    Senator Crapo. Thank you very much, Mr. Reese. That is a 
great quote you ended up with.
    Mr. Keith?

 STATEMENT OF KENDALL W. KEITH, PRESIDENT, NATIONAL GRAIN AND 
                FEED ASSOCIATION, WASHINGTON, DC

    Mr. Keith. Chairman and members of the subcommittee, I am 
Kendall Keith and I am president of the National Grain and Feed 
Association. Today I am also representing members of the 
Alliance for Agricultural Growth and Competitiveness. 
Individual members of that alliance are noted in our written 
testimony.
    We think the increased focus on conservation has mostly 
been positive, but programs that idle productive acres can also 
become an impediment to economic growth. To maintain a balance, 
we would offer the following points.
    First, USDA says it is fully committed to enrolling, at a 
maximum, 39 million acres. If the goal of this program is to 
maximize environmental benefits, this unconditional commitment 
is misguided. Maximizing idle acres is not equal to maximizing 
environmental benefits. Putting a narrow strip of land along a 
waterway in the program may seem expensive, but likely provides 
benefits many time statement of enrolling more acres of flat 
land in dry climates.
    Second, we do not favor automatic long-term extensions or 
re-enrollments without critical evaluation. The Administration 
says this may be necessary to ease Government workload. While 
we acknowledge the large expiring acreage, every private 
business encounters crunch times and it is not unreasonable to 
expect the same in Government. Re-enrollments need to be fully 
evaluated and be done through competitive bidding. USDA needs 
to seriously review whether the land that has been enrolled for 
15 to 17 years should be re-enrolled or permit other landowners 
a chance to bid for the program. Also, partial fields may offer 
more benefits for taxpayer dollars than whole farms.
    Third, we are concerned about the amount of land that will 
be needed to support traditional sectors of agriculture in the 
future, such as livestock and poultry. Ethanol production now 
absorbs 14 percent of U.S. corn production and is growing 
rapidly. The impact of soybean rust on yields is highly 
uncertain today. U.S. wheat acreage has shrunk over 10 million 
acres in the last 7 years. And it appears we are losing overall 
farm acreage as the total land in both CRP and crops has 
declined 9 million acres in the last 7 years. If the U.S. does 
not employ the land base to stay world competitive in grains, 
we will force sizable portions of our own livestock and poultry 
production offshore.
    Fourth, we are seeing the CRP causing troubling 
disinvestments in marketing infrastructure in Western States, 
where it is concentrated. Railroads are abandoning track, the 
loss of infrastructure means the cost of moving the remaining 
grains is more expensive and farm prices are lowered.
    Fifth, there appears to be excessive focus in the CRP 
program on game birds and hunting at the expense of water 
quality. Three major goals of the program are erosion control, 
wildlife, and water quality, yet USDA estimates that water 
quality improvements represent only 8 percent of CRP non-market 
benefits. Water quality needs more emphasis. This means more 
stream buffers rather than large tracks.
    Sixth, excessive early enrollments could restrict 
congressional options in the next farm bill. In our view, 
Congress should determine if more funds should be diverted to 
working lands to improve the rural economy. Congress should 
determine if more funds should be diverted to EQIP to enhance 
water quality. Congress should consider if the CRP is too 
concentrated in Western States and determine if the acreage cap 
should be reduced.
    Seventh, the administration of the 25 percent cap on the 
CRP acres in a given county we think needs to be examined to 
see if the performance conforms with the intentions of 
Congress. It appears that because of the use of outdated data 
by USDA, actual CRP acres in many counties far exceed the 25 
percent modern-day cultivated acres. We see up to 35 to 40 
percent of actual acres in counties being idled in the program.
    The economic damage caused by heavy acreage idling is real. 
Our written testimony contains letters from agribusiness 
operations in Idaho, in the State of Washington, noting that 
the CRP is driving merchants out of business and driving people 
out of the communities. CRP payments benefit landowners, but it 
is often forgotten that the program does the most damage to 
those that many would most like to help--beginning farmers and 
tenant farmers trying to earn a reasonable income. CRP raises 
land rents and it reduces the amount of farmland available. It 
puts a double hit on the profitability of tenant farmers.
    This highly negative CRP impact led USDA's own beginning 
Farmer and Rancher Advisory Committee in 2004 to recommend to 
the Secretary to ``direct ERS, FSA, and NRCS to research policy 
options for the CRP program to enhance beginning farmer and 
rancher opportunities as the next big wave of CRP contract 
expirations begin in fiscal year 2006 through 2008.''
    We are hopeful that USDA has plans under way to address 
this issue.
    That concludes my testimony. I look forward to questions. 
Thank you.
    [The prepared statement of Mr. Keith can be found in the 
appendix on page 14.]
    Senator Crapo. Thank you very much, Mr. Keith.
    Ms. Harden?

 STATEMENT OF KRYSTA HARDEN, CHIEF EXECUTIVE OFFICER, NATIONAL 
  ASSOCIATION OF CONSERVATION DISTRICTS (NACD), WASHINGTON, DC

    Ms. Harden. Good morning, Mr. Chairman, Mr. Salazar. I am 
Krysta Harden, and I am the CEO of the National Association of 
Conservation Districts. With your permission, my written 
comments will be added to the record. And please note, they 
also represent the views of the following associations, 
including NACD: the National Association of State Conservation 
Agencies, the National Conservation District Employees 
Association, and the Sustainable Agriculture Coalition.
    NACD knows that all titles of the farm bill are important 
and help make the package stronger, more effective and, 
frankly, passable by Congress. We believe much of the success 
of the last several farm bills, and especially the 2002 farm 
bill, can be credited to the conservation title. Over time, the 
conservation title has improved and increased in significance 
to producers as well as taxpayers. The conservation title has 
multiple benefits to farmers and ranchers by providing 
technical and financial assistance.
    There are also other benefits to both producers and 
taxpayers, including better management of our natural 
resources, a healthier farm economy, increased productivity to 
improve practices and management methods, and the development 
and use of emerging technologies and tools. The investment in 
conservation gives all of us cleaner air and water, healthier 
soils, and increased wildlife habitat.
    While not answering all the problems of every producer or 
every environmental concern, we do believe the farm bill 
conservation programs at authorized levels can provide 
meaningful resources to many producers and help our landscape 
stay clean, beautiful, and healthy. And we look forward to the 
continued review of conservation programs and to a lively 
debate regarding any gaps in programs and opportunities for 
improving our conservation system.
    As you know, Mr. Chairman, I am very excited and passionate 
about conservation programs and I could talk about these issues 
on and on. But due to my time limit, I will shift gears here 
and talk about the issues at hand today, the CRP program.
    It is appropriate that we begin our review of farm bill 
conservation programs with the CRP. This successful program is 
one of the largest and oldest. Over the last almost 20 years, 
it has helped producers and taxpayers make many key 
conservation goals and has been enhanced by CREP and buffer 
initiatives. NACD still supports and believes we can meet the 
acreage goals of CRP established by the 2002 farm bill within 
the next several years. The real questions are what acres will 
be enrolled and when will they be enrolled. We believe managing 
the large number of expiring contracts will place a tremendous 
burden on the system. And as you know, Mr. Chairman, 
conservation districts work directly with producers at the 
local level to implement conservation programs and practices, 
and we feel the conservation system will face a severe 
challenge in accommodating all the needs of the community at 
one time.
    We prefer a more deliberate approach, with short-term 
extensions, staggered re-enrollments, and other methods of 
making sure the right acres are enrolled. We know many of the 
acres subject to expiring contracts will be and should be re-
enrolled. However, we also feel there are acres that should be 
reviewed and may require additional maintenance activities or 
conservation practices. And there may be new acres eligible for 
the first time. We just want to make sure the most 
environmentally sensitive acres are enrolled. This is certainly 
best for the landowner, the integrity of the program, and the 
taxpayer. And we believe a focused approach will accomplish 
these objectives.
    In closing, I want to thank this committee and the Congress 
for changes made to fix the technical assistance problems in 
CRP and WRP. By allowing both programs to pay for their own 
technical assistance, we believe FSA will have the ability to 
utilize services of partners, including Federal and State 
agencies, conservation districts, and technical service 
providers. Thank you for your help in this important change.
    Again, thank you for the opportunity to present these 
thoughts and ideas today, and I look forward to your questions.
    [The prepared statement of Ms. Harden can be found in the 
appendix on page 16.]
    Senator Crapo. Thank you very much, Ms. Harden.
    Mr. Nelson?

 STATEMENT OF JEFFREY W. NELSON, DIRECTOR OF OPERATIONS, DUCKS 
UNLIMITED, INC., GREAT PLAINS REGIONAL OFFICE, BISMARCK, NORTH 
                             DAKOTA

    Mr. Nelson. Thank you, Mr. Chairman, and thank you to the 
committee for allowing us once again to provide some of our 
thoughts on this important topic, and also for the leadership 
your subcommittee continues to show in the conservation title 
and all the benefits that have already been mentioned.
    I am Jeff Nelson. I am the director of the Great Plains 
Office of Ducks Unlimited, so I am going to have a bit of a 
bias toward the northern part of the Great Plains. But I do 
represent today 18 different wildlife organizations who 
comprise more than 5 million members.
    In our submitted testimony, we only had 13 on. There are 
five more who have joined since then. I would like to just 
quickly mention them: The Congressional Sportsmen's Foundation, 
the Land Trust Alliance, the National Wildlife Federation, the 
Rocky Mountain Elk Foundation, and Wildlife Mississippi. So we 
are pretty well represented here.
    I would also like to start by saying we do have productive 
partnerships with many of the producers on the land, farmers, 
ranchers. Every day we work with them. We also work with FSA 
and NRCS and appreciate their partnership and leadership in 
everything we do.
    Our submitted testimony, of course, goes into more depth 
than time allows here, so I am just going to hit a couple of 
key points and then answer questions.
    There can be no dispute, the conservation title of the farm 
bill, and CRP in particular, has been a huge success and a 
great investment for American taxpayers, in our view. The CRP 
has been very well received by American farmers and ranchers. 
Evidence of that is there is far more demand for CRP than could 
be met by the current fund and particularly with the general 
signups. The response continues to be overwhelming. For every 
four people that submit bids, only one is accepted right now. 
So we see continuing strong interest by farmers in this 
program.
    The program has measurable benefits for wildlife. That has 
been documented. You asked for the science; there are several 
studies in our submitted testimony. On the chart over here on 
my left is a graph showing that as we add grassland--through 
CRP, in this case--we certainly see an impact on waterfowl, in 
this case, their ability to nest successfully. But we continue 
to see the same sort of response for pheasants and songbirds 
and other wildlife. So there can be no dispute. The science is 
there. CRP has been good for wildlife.
    On the issue of rural economies, rural economies are in 
transition right now and that has been referred to by several 
here on the panel. I think the evidence is in from USDA, one of 
the studies they just completed, that CRP--it is tough to point 
at CRP as the reason for that. Their results would indicate 
that it is not related to the loss of populations, at least in 
the big scale. There are a bunch of factors that are impacting 
what is going on in rural America right now. On balance, we 
don't think CRP is hurting rural areas. It is hurting in some 
areas and probably helping in others.
    On the issue of the expiring acres, we are all concerned 
about getting those acres re-enrolled somehow. We have all 
submitted comments. We are focused on trying to get the follow-
up on the President's announcement in Minnesota last year, 
where he recommended the option for early re-enrollment for 
farmers. We will continue to push because we know producers are 
interested in this and we are glad to hear today that FSA is 
hoping to get that issue resolved by sometime later on this 
fall.
    Of course, the second thing is getting CRP fully 
reauthorized in the next farm bill. We think the evidence is in 
for all the benefits it provides. Even at current levels, at 
the current cap, there is more demand that can be met.
    In conclusion, there is desire by both landowners and 
conservationists to continue the program. The program gives 
farmers many options in their individual operations. Most 
farmers don't enroll their whole farm. It gives them good 
flexibility in helping them with risk management and other 
concerns. If it wasn't for all the popularity of the program, 
we would be concerned, but the farmers definitely want in. It 
is not destroying the rural economy, in our opinion, and many 
other factors need to be looked at when we look at declines in 
rural areas.
    CRP should be continued at current levels and it can be 
continued while meeting the Nation's food and fiber needs and 
allowing for a productive farm sector. We ought to fully 
implement CRP and maintain it in the next farm bill.
    I thank you for your time and look forward to any 
questions.
    [The prepared statement of Mr. Nelson can be found in the 
appendix on page 18.]
    Senator Crapo. Thank you, Mr. Nelson.
    Mr. Forster?

   STATEMENT OF DAN FORSTER, DIRECTOR, GEORGIA DEPARTMENT OF 
NATURAL RESOURCES, WILDLIFE RESOURCES DIVISION, SOCIAL CIRCLE, 
                            GEORGIA

    Mr. Forster. Thank you, Mr. Chairman. I am Dan Forster, and 
it is my pleasure to serve as the director of the Georgia 
Department of Natural Resources Wildlife Resources Division. In 
that capacity, I also serve as chairman of the Northern 
Bobwhite Conservation Initiative Committee, which is a 
committee of the Southeastern Association of Fish and Wildlife 
Agency Directors. I also serve as vice chairman of the 
International Association of Fish and Wildlife Agencies' 
Agricultural Conservation Committee. My comments today will 
generally reflect the views of all these organizations.
    The CRP is arguably the single most effective conservation 
program ever developed for agricultural lands. My comments 
today focus on wildlife conservation aspects of CRP, which is 
generally improve wildlife habitat and populations, 
particularly in the Midwest and the Northern Great Plains. 
Unfortunately, CRP has not been nearly as positive for wildlife 
in the Southern U.S., and across this region can best be 
described as a program whose potential is still to be realized.
    That being said, I want to further emphasize that, overall, 
CRP is a program with many positive attributes, but one that 
needs adjusting to reach its full potential in the South.
    I recommend that CRP be maintained in the next farm bill at 
least at the current level of 39 million acres, and if 
possible, expanded to 45 million. CRP could be a natural fit 
with the Northern Bobwhite Conservation Initiative, NBCI, which 
is a 22-State plan to provide habitat for bobwhites in numerous 
songbird species that are in serious decline. The CRP goes 
hand-in-hand with bobwhite restoration because bobwhites are a 
working land bird and they are favored by natural and human-
induced disturbances. Research and management show that it is 
both ecologically and economically feasible to restore 
bobwhites and other grassland wildlife through ecologically 
sound ag-enforced management.
    This knowledge led to the development of CRP practice CP33, 
Habitat Buffers for Upland Birds, which was announced last 
August by President Bush, and for which USDA should be praised. 
I believe CP33 is a giant step toward making CRP more wildlife 
friendly in meeting NBCI goals. CP33 provides incentives to 
landowners for field buffers around the perimeter of crop 
fields. These buffers provide critical habitat for bobwhites, 
songbirds, and other wildlife. They help control soil erosion 
and improve water quality. And CP33 is working.
    For example, Dr. Wes Burger, wildlife professor at 
Mississippi State and specialist in bobwhite research, reported 
that Mr. Jimmy Bryan, owner of B-Bryan Farm in Clay County 
Mississippi, is seeing quail in places where he hasn't seen 
birds in many years. Mr. Bryan has 195 acres of CP33 buffers on 
his 1,200-acre farm. And we have reports like these coming in 
from across the South.
    I believe it is noteworthy and appropriate that CP33 has 
been chosen as one out of 30 conservation case studies to be 
featured at the upcoming White House conference on conservation 
in August.
    A number of Southern States have researched management 
projects proving that the same success that CRP is providing 
for wildlife in the Great Plains and Midwest regions are 
possible for bobwhites and grassland birds in the South. In 
fact, if properly managed, the currently enrolled CRP habitats, 
specifically the more than 10 million acres that are 
predominantly in exotic grass and densely stalked pines in the 
22 NBCI States, could support 2.2 million bobwhite coveys. This 
represents 81 percent of the NBCI bobwhite recovery goal.
    CRP can be the champion for bobwhite and songbird recovery. 
It can become a program that truly provides equitable 
conservation of soil, water, and wildlife to all regions of the 
country.
    Mr. Chairman, I appreciate this opportunity to comment, and 
look forward to further discussions. Thank you.
    [The prepared statement of Mr. Forster can be found in the 
appendix on page 19.]
    Senator Crapo. Thank you very much, Mr. Forster. And I have 
to also commend this entire panel. I think every one of you 
finished before your time was up. I don't know if we scared you 
into that or not, but it is very much appreciated because it 
helps us keep on schedule.
    Let me start out with you, Mr. Reese. In your testimony, 
you indicated that you would argue against an earlier automatic 
re-enrollment and suggest that new contracts or re-enrollments 
go through a competitive bid process and that CRP should be 
focused on the most environmentally sensitive lands. Do you 
believe there is a consensus among farm groups that that is the 
way we should approach the CRP program?
    Mr. Reese. I can't speak for other farm groups. I know that 
within our own organization, the wheat growers, it has been a 
very difficult issue to come down on one side or the other. We 
are speaking to policy as we currently have it there within 
that statement. Within CRP itself, though, overall it seems to 
be that the older you are, the more you favor it, because it 
becomes a land retirement program. The younger you are, the 
more you are against it, because it doesn't allow you to 
competitively bid for farmland for production.
    Senator Crapo. And you may not be in the program yet, 
right?
    Mr. Reese. That is right.
    Senator Crapo. Mr. Keith, do you have any comments on that? 
The question being basically what kind of consensus is there 
among farm groups about early re-enrollment and automatic re-
enrollment.
    Mr. Keith. Based on the testimony that was given on June 
24th at the USDA hearing, what I heard from most producer 
groups there was to favor some extensions, possibly up to 5 
years, where there was very high EBI scores, but in general, 
more in the 1- to 3-year period, to at least push some acres 
forward to get rid of the big lump of acres in the program. But 
not automatic re-enrollments.
    Senator Crapo. Thank you. On this issue, do any of the 
other witnesses want to weigh in? Mr. Forster?
    Mr. Forster. Thank you. Yes, one issue in the South in 
particular, we are very interested in continuing the enrollment 
but are also equally interested in the EBI, in the benefits. 
And some of the enrolled acres, I think, to help the staggering 
problem would be something we could look at there, particularly 
with pines, and offer an extension so that the highest quality 
habitats can be enrolled initially and then those maintenance 
activities that may be needed to boost those EBIs up to benefit 
wildlife could be part of that staggering program. So I think 
there are some creative ways to both improve wildlife habitat 
there and also address some of those staggering issues.
    Senator Crapo. Thank you. Mr. Nelson?
    Mr. Nelson. One of the challenges we fail is this regional 
variation in the current CRP that is on the ground. We have had 
debates within the conservation community about this. In the 
Southeast there is a definite need for better management of 
some of the tracts and maybe replacement of habitat. In the 
Northern Great Plains, however, there is pretty broad consensus 
that things are pretty good the way they are, and those areas 
might be ready for re-enrollment as-is without--I mean, there 
are good lands that should be in the program and they are 
really producing the way we wanted them to just the way they 
are.
    Senator Crapo. All right. Let me ask a question--well, I 
guess I will throw this out to the whole panel. You don't all 
have to answer, but if any of you do want to chime in on this, 
feel free to.
    Is it a foregone conclusion for CRP lands that are not re-
enrolled that they would necessarily be put back into wheat or 
whatever other production was originally utilized on them? In 
other words, is it a foregone conclusion that these lands will 
go back into production if they are not re-enrolled? Mr. Reese?
    Mr. Reese. I will take a stab at that. I farm in an area of 
the country where it is fairly dry. And I have a neighbor who 
had about, oh, a thousand acres or thereabouts in CRP. And when 
the contract came do, he chose to put that into grazing for 
cattle because the wheat price was so low. So I think there are 
areas where, particularly if you look at the average wheat 
production in the United States is about 40 bushels per acre, 
if they can't be competitive at that level of production or 
lower, and with cattle prices relatively high, they may choose 
to actually forgo re-enrollment and go into cattle or some 
other grazing alternative. We, of course, as wheat producers, 
as a wheat organization, aren't very happy with that 
possibility.
    Ms. Harden. I would agree, Senator Crapo, with Mr. Reese's 
comments that some of the land we think might go into grasses 
and grazing instead of back into production, depending on where 
they are, and the water issues, I think, play a large role in 
that decision.
    Senator Crapo. Mr. Keith, did you want to say something?
    Mr. Keith. Yes. I think some of this depends on the pattern 
of ownership. You do see nonresident owners buying more land, 
in some cases, really, for the existing CRP payments and for 
hunting. And they would have no intention of ever putting that 
land back in production. They don't want to go out and try to 
find a renter. Their goal is, it is kind of a recreational 
thing for them.
    Senator Crapo. Thank you. Mr. Nelson?
    Mr. Nelson. Yes, one of the things that I would add to that 
is to remember that a lot of the fields that are in CRP used to 
be cropland and don't typically have perimeter fences. With the 
changes in genetics in our part of the world, we are seeing 
with soybeans and corn, we are seeing a lot of native prairie 
actually being plowed up right now. I expect that is a pretty 
good indicator of what would happen to some of the CRP, that it 
would in fact get plowed up, because we are already seeing it 
in areas where they have to move huge rocks as big as 
refrigerators and they still enough economic value in doing 
that, that they are doing it.
    Senator Crapo. Yes, Mr. Forster?
    Mr. Forster. Again, with respect to pines in the South, our 
experience with the old soil bank program suggested that less 
than--or about 2 percent of those pines went back into crop 
production. So in the South, where the majority of our CRP 
lands are in pine, we expect it would be a very low percentage 
that would go back into production.
    Senator Crapo. OK, I appreciate that information.
    One of you, I believe it was Mr. Keith, raised the question 
of focusing on water quality versus wildlife habitat. Was that 
you, Mr. Keith, that raised that question? And it was 
interesting. I think, if I understood your comment correctly, 
you indicated that there had been quite a bit of success in the 
program in terms of basically maybe upland game and wildlife, 
in that context, waterfowl and hunting, but not necessarily in 
water quality improvement. And that kind of perked up my 
interest, because I am very supportive of all of those 
interests but, looking at the draught we are facing in the West 
and the potential for using the CREP program for water 
quantity, I am wondering whether there is a need to focus on 
CRP more with regard to water quality issues.
    And I just--I know, Mr. Keith, you have already had a 
comment on that. There may be some comment--maybe I would start 
with you if you want to expand at all, and then let other 
members of the panel jump in on that issue.
    Mr. Keith. Well, no, I mean, USDA has done an assessment, 
and I assume it is objective, and they found a lot more 
benefits coming from wildlife production than they did from 
water quality. And, you know, the tradeoff, you may have to pay 
$100 or $150 per acre to get some of those stream banks in the 
program, but it is very worthwhile. Water quality is a major 
challenge for agriculture long-term in this country.
    Senator Crapo. Ms. Harden?
    Ms. Harden. I just would remind you, Mr. Chairman, that the 
original intent of the program was soil erosion which kept soil 
on the ground and not in the water. So I think the water 
quality benefits over the 20 years can be traced back. You say 
there have been improvements. And certainly the buffer strip 
initiatives and the CREP do make a big difference in the latter 
years.
    Senator Crapo. Thank you. Mr. Nelson?
    Mr. Nelson. I think you might want to--I am not sure where 
the numbers came from, but it seems to me that a lot of CRP 
provides all those benefits at the same time. I don't know how 
you separate them out. The cover that might be put in from a 
water quality perspective also provides wildlife habitat. The 
issue of the whole field enrollment, I think some areas of the 
country with a lot of CRP have small wetlands that make it 
impossible to just put buffer strips around the wetlands and 
farm economically, so they would--the farmers prefer to enroll 
the whole field as opposed to trying to cookie-cutter out areas 
for filter strips and things like that.
    Senator Crapo. All right, thank you.
    Mr. Forster, you indicated that we had more success in the 
Midwest, I think it was, than in the South. Why is that?
    Mr. Forster. I think, as our partners from Ducks Unlimited 
eloquently pointed out, there has been just, you know, 
significant, measurable increases in some of the wildlife 
species that have been targeted for some of the programs, ducks 
being the primary one. In the Southeast, those landowners that 
have taken advantage largely of CRP programs, the focus there 
was on the soil and the water elements of the program, which 
are highly beneficial. But the truth has been the majority of 
the properties that have been enrolled have gone into either 
exotic pasture grasses, which provide very little wildlife 
benefits, and into pine plantations, which pines, if managed 
correctly or for a specific benefit, can certainly add value, 
but unthinned pine stands planted at high stocking rates does 
not provide very much in the way of wildlife benefits.
    One of the targeted species of interest, both as mentioned 
by the President and many of the groups that I referenced 
earlier, has been bobwhite quail and other early successional 
songbird species--dickcissels and a variety of sparrow species, 
Eastern meadowlarks, indigo buntings. We have seen significant 
declines over time which rely on early successional species. 
And in order to benefit those species in terms of habitat, 
there are some modifications that need to be made to switch the 
emphasis away from exotic grasses and away from high stocking 
rates and unmanipulated pine stands to benefit those more open-
habitat-needy species.
    Senator Crapo. One of the witnesses, I think more in the 
written testimony, indicated that we need to have more local 
control. Was that you, Ms. Harden?
    Ms. Harden. Probably.
    Senator Crapo. In any event----
    Ms. Harden. It is what we usually say.
    Senator Crapo. Good. I believe in that, too, by the way. 
What I am hearing here is that there are regional differences 
and to me that means that perhaps the local control could help 
us be much more effective at meeting these regional needs. I am 
seeing heads nod yes. Anybody on the panel want to comment on 
that?
    Mr. Forster. I would love to address that initially. I 
think in our written testimony you will find a recommendation 
there to establish State habitat teams, which may be very 
beneficial in addressing the EBI index, so that you can weight 
some of those benefits equally across soil, water, and 
wildlife, but also implement regional practices, perhaps 
statewide, that do maximize a benefit. There are clearly some 
great successes and some opportunities, and I think that is a 
great way to address that in the future.
    Senator Crapo. Mr. Keith?
    Mr. Keith. We think that local communities certainly 
understand their environmental needs better from a macro 
setting, and we understand that. But there is a part of the 
local decisionmaking process we are a little bit troubled by, 
and that is in the past, where they have allowed local 
communities to vote or do referendums on whether they want to 
exceed the cap or not. It becomes a little bit of a popularity 
contest. And frankly, if you are concerned about the overall 
economics of the economy, it is hard to express those views at 
a local level.
    Senator Crapo. That is a good point. Mr. Nelson?
    Mr. Nelson. Yes, I think local input is certainly 
important, at the State level or even more locally than that. 
But I would point out that there are some areas where CRP has 
been a very big component of the landscape that are nationally 
important and have been identified as national priority areas. 
And I think, at least in those areas, there ought to be some 
direction from the Federal Government as to the importance of 
those areas because they do provide key habitat for migratory 
species that cross State borders and what happens there does 
have an impact on other States and areas.
    Senator Crapo. Good prospectus. Mr. Reese?
    Mr. Reese. I guess I would also, from a production 
agricultural standpoint, endorse local control. As someone who 
has held a CRP contract both in the beginning and also I am 
holding one now, in addition to a CSP and a continuous CRP, I 
am well acquainted with the problems on the ground of local 
control, from the technical aspect especially, where we have 
been asked to plant competing species which, in the case of 
legumes and grasses, forced us into a situation where we have 
to choose, if we have to get rid of weeds, which invasive 
specie do we get rid of and which of the grasses or the legumes 
do we harm by that. So local control and inputs, particularly 
in the technical aspect, is important.
    Senator Crapo. Thank you. You know, one of the--this is a 
constant battle at the Federal level over policymaking and 
environmental decisionmaking, and one of the things that I have 
always felt would be a good compromise between the various 
perspectives is to try, to the extent possible, to have the 
Federal standards, as flexibly as possible, established and 
then let the local communities or the States figure out how to 
meet those standards and how to accomplish the objectives.
    I think there is pretty broad consensus among the witnesses 
and among others I have talked to on this issue that, however 
we approach re-enrollment or enrollment, we ought to do so in a 
way that gives us the maximum environmental benefit. That 
yields the question, how do we measure that? How do we 
determine the standards by which we will evaluate? To a certain 
extent, I think we are answering that by saying we need to have 
some local control, but we also need it at the policy level 
here in establishing the program to somehow give some guidance 
on what we mean when we say that. Could any of you weigh in on 
your thoughts on that, if you would like to? I know that is a 
really broad question. Mr. Keith?
    Mr. Keith. I think part of it is just efficient use of 
money. And I think some of the statements by USDA suggesting 
automatic re-enrollments or automatic extensions just raises 
the issue how do you establish today's rental rate. Now, you 
can say you can update those rental rates, but it is really 
hard to do that because you are talking existing CRP ground and 
the intentions and the plans of that owner for that ground, and 
they are very diverse. I have noticed some are urban, some 
folks are local landowners that could find a renter that would 
like to put it back in production. I can see some land that is 
out there that might require a considerably higher rent from 
the Administration, from Congress, to continue with the 
program. I can see some land out there that is in the program 
that would accept a much lower rent and continue in the 
program. So I think this automatic update is probably not a 
wise use of taxpayer money.
    Senator Crapo. Ms. Harden?
    Ms. Harden. I think it is the balance that we all struggle 
for, using the EBI, a national perspective, and carrying 
through the State technical committee and down to the local 
level with input and looking at the balance on the value of the 
acres that are either in there--And as I said in my comments, 
some of them need to be reviewed. Some may need additional 
conservation practices. I think you have to have an open mind 
in looking at these acres and not assuming, because they have 
been in there, that they are the best acres that should be. And 
as budgets get tighter and the focus is much stronger scrutiny 
at these acres, I think we have to define the balance between 
national priorities and our local priorities as well.
    Senator Crapo. Thank you. Ms. Harden, yesterday we heard 
testimony regarding the establishment of native cover on CRP 
ground. And in your written statement, you noted that the NACD 
supports planting native vegetation but that you are not sure 
it is always wise or necessary or even economically practical 
to require a producer to remove non-native vegetation. Can you 
expand on that a little bit? Should the FSA develop standards 
on this issue?
    Ms. Harden. Possibly, and that is something we would like 
to work with them on. There are a lot of complaints from 
producers who have had CRP enrolled and had good environmental 
benefits, wildlife habitat reestablished on their CRP acres, 
and then they are told when they are re-enrolling and there is 
a review that they need to break this ground out and re-plant 
something else. So in many cases it does not make sense for the 
existing wildlife habitat and certainly economically. So 
working with the Agency just--it is a common-sense issue, 
really, what works for a local level, and not just a mandate 
that it has to be a specific vegetative cover in every case, 
but looking at the whole picture.
    Senator Crapo. Thank you. The next issue I want to get into 
is one that has been raised by Senator Salazar, to a certain 
extent, and it is one on which I know there is disagreement 
among this panel. And I am not trying to start a big debate 
here, but I think we need to get into this issue a little bit. 
And that is the question of what is the economic impact of CRP. 
Some have said that there is a question here of whether CRP 
actually is harmful, and I know we have some charts that Mr. 
Nelson has provided in that context. Senator Salazar raised the 
question of whether there is an economic impact on rural 
communities in the way that some landowners are approaching 
this.
    I would just like to get each member of the panel, if you 
choose, an opportunity to expand on your thoughts on that issue 
as we approach this. Mr. Reese?
    Mr. Reese. When that question was raised, I jotted down 
some figures. Where I farm, it is a wheat-fallow rotation, 
which means you only get a crop on that acre every other year. 
So for us, if you figure that it is a $3.50 wheat price and a 
50-bushel yield would yield a gross of about $175 an acre, a 
third of that normally goes to the landowner. So in that case, 
you lose $55 a year every other year on that acre. It goes out 
of the county, if you want to look at it that way, from an 
absentee-landowner standpoint. At the same time, that ground 
would yield a rental payment currently of about $42 an acre 
every year, so that is $84 versus the $55. So there is a net 
loss, I guess you could put it, of maybe $29 an acre out of the 
county for each acre that is an absentee-landowner situation.
    I would posit, however, that when we were in CRP, heavily 
involved in the 1980's, we didn't buy a new combine but we did 
go down to Main Street and buy a new pickup. We didn't buy as 
much fertilizer, but we bought more clothes for the kids or 
maybe went on a vacation or did other things which were 
economically enhancing, but they weren't necessarily tied to 
agricultural production. So there is a tradeoff, obviously. But 
to say that those dollars necessarily go out of the area may or 
may not be true. It depends on the amount of absentee 
landowners, what the rental rates are, and what the competing 
interests are, obviously.
    Senator Crapo. Thank you. Anybody else want to jump in?
    Ms. Harden. I will be happy to. I am not an economist, by 
the way, so this is just a personal opinion. And I have read 
the studies over the last several years going both ways, that 
it had a large impact, that it has not. And what I can gather 
is the impact was early, in the early days of CRP, and it might 
have been more drastic than was anticipated. But that has kind 
of leveled out. The question in my mind is what would have 
happened to those acres anyway as folks moved away from the 
farm, they were retired, they get that age--a parent does, kids 
move, would that have been sold for farming and ranching? In 
some cases, yes; others, it might have been developed.
    So I think, here again--and ``balance'' is often a word I 
use because I think we have to look at the balance. I think we 
are doing a better job targeting acres than we did in the early 
days of CRP. Some of the concerns in looking at some of these 
charts, maybe that has leveled off and we are doing a better 
job, with buffer strip initiatives instead of whole farms, and 
that we are looking at distributing CRP to the Southeast and 
other areas of the country, so the impacts will not be 
significant in just certain parts of the country.
    Senator Crapo. Mr. Keith?
    Mr. Keith. I am an economist by training, trade association 
exec by occupation. But, you know, we have reviewed a lot of 
studies and we think there is a lot more studies that indicate 
that there is true economic damage created by acreage idling 
programs. USDA did a very, what appears to be a thorough study. 
They chose a timeframe that I am not sure was the right 
timeframe. I mean, it picked up when the CRP program originally 
began, but we were heavy into acreage idling well before that 
in other programs. And so I am not sure of the total economic 
impacts of pre- versus post-start of the CRP program.
    But the USDA conclusions are counter-intuitive. I mean, if 
you look at a local economy, if they are traditionally 
dependent on output of farmers, those farmers buy inputs, they 
sell to local merchants. It is what drives the economy. And to 
assume that idling resources is like idling plants in any 
industry, is going to provide some kind of an economic boost, 
is simply counter-intuitive.
    Senator Crapo. Mr. Nelson?
    Mr. Nelson. Just quickly responding to the idea of idling, 
whereas I think there is a misconception that CRP has been idle 
ever since it has been put on the ground. We continually use 
CRP in the Northern Great Plains in draught emergencies, flood 
emergencies, and it was very important to maintaining ranchers 
in the western part of North Dakota just last year, when they 
were extremely dry and had no hay, and the CRP provided that 
hay for them that year. So it is a little bit of a 
misconception that CRP is just never used. It is used actually 
quite often. I would just point to the chart of the North 
Dakota situation with a number of farms, and it is pretty clear 
that we have a steady decline in the number of farms going way 
back to the 1930's. In fact, if anything, the line has 
flattened off a little bit since CRP.
    There is just, as I mentioned in the written testimony, 
there is a bunch of things going on in the farm community. 
Unfortunately, for farmers to compete in today's world markets, 
they don't use many people. They have high capitalization, they 
have big equipment, and farming is just not a big employer of 
people anymore like it used to be. And so things have changed. 
I think it is unfortunate that people continue to point at CRP 
as the root cause of that. I think the world has just 
fundamentally changed. All you have to do is look at Canada. 
They have the same exact patterns going on in Canada. Their 
rural communities are struggling and they have nothing like 
CRP. They are just simply trying to compete in the world 
marketplace and it just demands bigger equipment and bigger 
farms.
    Senator Crapo. Mr. Keith, rebuttal?
    [Laughter.]
    Mr. Keith. Well, just one brief comment on the chart, since 
he referred to it, showing the farm decline and appearing to 
slow since the CRP program began. You could do a chart like 
that probably on every State in the Union, regardless of 
whether it has much CRP land or not, and you would see probably 
roughly the same pattern. What is going on in agriculture is 
you are seeing bigger getting bigger and you are getting hobby 
farmers part-time, and so the net number of farms is kind of 
leveling out there. But it doesn't have a whole to do with CRP, 
frankly.
    Senator Crapo. Well, I knew we wouldn't resolve it. Did you 
want to say something, Mr. Forster?
    Mr. Forster. Just a quick comment. I do agree with the 
gentleman that there are a lot more complexities involved than 
a single root cause that we can show correlation to. But with 
respect, again, to the issue of pines, the harvesting of pines 
has actually generated some significant economic benefit at the 
local community levels because that is a significant source of 
income and will continue to be that until the entire rotation 
of that pine stand has expired.
    Senator Crapo. Well, thank you. And like I said, I figured 
we wouldn't resolve the issue entirely today, but I wanted to 
let everybody kind of weigh in on it because obviously it is a 
part of the debate as to how we approach the issue.
    And in that context, though, I would like to have you all, 
if you choose, address sort of a similar perspective on this. I 
think it was you, Mr. Reese--I am sorry I tend to--your 
testimony blurs for me on some of these things, especially when 
I have read the written testimony before. But I think it was 
you, Mr. Reese, who said that the CRP was one of the most 
successful or maybe the most successful--was that--?
    Mr. Reese. I think it was down there.
    Senator Crapo. Down here? Ms. Harden, OK. You are all 
taking credit for it.
    [Laughter.]
    Senator Crapo. Maybe that is the answer to my question. I 
tend to think that the CRP program is one of the top 
conservation programs that we have in the farm bill in terms of 
its success. One of the debates that we engage in as we try to 
reauthorize the farm bill is what should the size of the 
Federal Government's dollar commitment be to the conservation 
title, which I think we have had some great success in 
expanding. But also, what should be in the conservation title? 
And there are lots of different competing ideas for how to 
approach conservation in the farm bill.
    Last time we went through this--and I am expecting it will 
be similar this next time--there were a lot more ideas than 
there were dollars. And so we had questions as to how much 
finding should we allocate to CRP versus--well, I am not going 
to create any battles here on other programs, but versus other 
programs.
    The question I kind of want to get at with you is there are 
a lot of proposals for new programs or to expand existing 
programs, and where should the CRP program fit in our 
priorities in terms of what we now have on the table? I realize 
you don't even know what new ideas may be proposed, so you 
can't really comment on them yet, but could you just give me a 
picture of your belief as to the value of the CRP program and 
where we should rank it in terms of how we approach the 
establishment of the new farm bill conservation title. Mr. 
Nelson?
    Mr. Nelson. Well, I think the group that I represent would 
rank it right at the top, at or near the top, mostly because it 
is a program with documented benefits. Some of the newer 
programs, newer ideas, we really don't know what kind of 
benefits we are going to get. There are other parts of the 
conservation title that are also very important, and I would--I 
guess I am not going to go and rank those. But I would say that 
it is not to say they aren't important, but CRP has been, I 
would say, the linchpin of the conservation title from the--
certainly from the perspective of wildlife and, I would argue, 
from water quality and air quality benefits as well.
    Senator Crapo. Mr. Reese?
    Mr. Reese. I will take a shot at it, although as an 
association president, you don't like to get too far out in 
front of your association.
    Senator Crapo. We will give you a waiver on that.
    Mr. Reese. You know, conservation is easy if you just take 
production ground and plant it to grass and walk away from it. 
I think where the hard part of conservation is if you are a 
farmer, as I am, and you are trying to conserve working lands. 
So from that standpoint, CRP has been very valuable in overall 
conservation efforts, but from a production--and I am sure Mr. 
Keith would agree with me--from a production ag standpoint, if 
you apply that conservation standard to the working lands, you 
come up with something entirely different, and that is how do 
you keep land in production and yet still have environmental 
benefits that would flow back to the general public and how do 
you reward the farmer for that effort?
    So I think that needs to be kept in mind as well, that we 
can't simply lock up and walk away, nor can we expect 
production agriculture in this country to stay viable if we 
have to compete with the Federal Government and the Federal 
Treasury for the chance to farm ground. And so from that 
standpoint, I guess from the National Association of Wheat 
Growers, to coin a phrase, we support the farmer's right to 
choose.
    Senator Crapo. Ms. Harden?
    Ms. Harden. Mr. Chairman, you know that conservation 
districts work with landowners and operators in every State and 
just about every county. And there is no one program, including 
CRP, as big and great as it may be, that suits the need of 
every landowner. There has got to be other programs, other 
tools, to meet the environmental demands put on producers these 
days. And we do support CRP, a very viable CRP that is targeted 
to the most environmentally sensitive lands we have all talked 
about today to have additional benefits, but there must be 
other programs that meet the needs and the pressures that are 
put on producers and those that are still producing food and 
fiber and livestock.
    Senator Crapo. Mr. Forster?
    Mr. Forster. I think the rank of the CRP program is 
extremely high, in particular if the EBI can be modified to 
more specifically meet some of the regional perspectives. I 
also think there is a very important critical link in helping 
to answer that question with respect to the other national 
initiatives that are ongoing, particularly on the wildlife 
front and, I am sure, elsewhere, things like the State wildlife 
comprehensive strategies that are being developed now in all 50 
States identifying species of concerns, habitats of need. 
Melding this important program into addressing some of those 
statewide initiatives and concerns is critical. The Northern 
Bobwhite Conservation Initiative I spoke of, national plan, 
trying to marry as many opportunities as we can, I think, is 
going to maximize the benefit for all.
    Senator Crapo. Thank you. Mr. Keith?
    Mr. Keith. We would favor Congress taking a hard look at 
working lands and the EQIP program, which promises improvements 
in water quality. We think that CRP has done a lot of good. We 
think that in some cases we have really put very productive 
farmland into the program for 20 years, and you have to 
seriously think about that going forward--is this what we want 
to do with the taxpayer money or not.
    Senator Crapo. All right, well, thank you. We certainly do 
have a breadth of perspective on this and it is going to be an 
interesting time as we at this level, policy level here at the 
Congress, try to work through all this. I don't myself even 
know exactly what ideas are going to be put forward, but the 
perspective that each of you has brought here today is very 
helpful.
    I have a lot more questions, but I have run out of time, 
too. So I am going to have to bring this hearing to a close.
    I want to thank all of the witnesses for your excellent 
written and oral presentations. It has been very helpful to the 
committee and I think it is going to be very helpful to USDA 
for this oversight process. And I would encourage you to 
continue to give us your input and thoughts on these issues as 
we progress and as matters develop.
    Again, I want to let everybody know that we are very 
committed at this committee level to making sure that we not 
only conduct adequate oversight over the CRP, but that we get 
ourselves totally prepared for the next conservation title of 
the farm bill with a strong focus on conservation, but doing it 
in a way that helps make sure that we provide the necessary 
incentives and support to the private property owners, the 
landowners, those who work the productive land and otherwise, 
and help to make them partners in the process even more 
effectively than they now are. As we also, from the regulatory 
side, put mandates onto the landowners--and I am not suggesting 
that we should be putting more mandates on, but that they are 
already put on, and that we need to find a way to help increase 
our effectiveness in this partnership for conservation.
    I will say it again at the conclusion of this hearing, I 
think that the issues we are dealing with here and the 
conservation title of the farm bill is probably the most 
powerful and most effective opportunity that we have to truly 
improve conservation and strengthen our environment in this 
country. And we can get a win-win out of it by working with our 
landowners as well.
    So with that, I again thank all of you and I will declare 
this hearing concluded.
    Thank you.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]

=======================================================================


                            A P P E N D I X

                             July 27, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T7640.001

[GRAPHIC] [TIFF OMITTED] T7640.002

[GRAPHIC] [TIFF OMITTED] T7640.003

[GRAPHIC] [TIFF OMITTED] T7640.004

[GRAPHIC] [TIFF OMITTED] T7640.005

[GRAPHIC] [TIFF OMITTED] T7640.006

[GRAPHIC] [TIFF OMITTED] T7640.007

[GRAPHIC] [TIFF OMITTED] T7640.008

[GRAPHIC] [TIFF OMITTED] T7640.009

[GRAPHIC] [TIFF OMITTED] T7640.010

[GRAPHIC] [TIFF OMITTED] T7640.011

[GRAPHIC] [TIFF OMITTED] T7640.012

[GRAPHIC] [TIFF OMITTED] T7640.013

[GRAPHIC] [TIFF OMITTED] T7640.014

[GRAPHIC] [TIFF OMITTED] T7640.015

[GRAPHIC] [TIFF OMITTED] T7640.016

[GRAPHIC] [TIFF OMITTED] T7640.017

[GRAPHIC] [TIFF OMITTED] T7640.018

[GRAPHIC] [TIFF OMITTED] T7640.019

[GRAPHIC] [TIFF OMITTED] T7640.020

[GRAPHIC] [TIFF OMITTED] T7640.021

[GRAPHIC] [TIFF OMITTED] T7640.022

[GRAPHIC] [TIFF OMITTED] T7640.023

[GRAPHIC] [TIFF OMITTED] T7640.024

[GRAPHIC] [TIFF OMITTED] T7640.025

[GRAPHIC] [TIFF OMITTED] T7640.026

[GRAPHIC] [TIFF OMITTED] T7640.027

[GRAPHIC] [TIFF OMITTED] T7640.028

[GRAPHIC] [TIFF OMITTED] T7640.029

[GRAPHIC] [TIFF OMITTED] T7640.030

[GRAPHIC] [TIFF OMITTED] T7640.031

[GRAPHIC] [TIFF OMITTED] T7640.032

[GRAPHIC] [TIFF OMITTED] T7640.033

[GRAPHIC] [TIFF OMITTED] T7640.034

[GRAPHIC] [TIFF OMITTED] T7640.035

[GRAPHIC] [TIFF OMITTED] T7640.036

[GRAPHIC] [TIFF OMITTED] T7640.037

[GRAPHIC] [TIFF OMITTED] T7640.038

[GRAPHIC] [TIFF OMITTED] T7640.039

[GRAPHIC] [TIFF OMITTED] T7640.040

[GRAPHIC] [TIFF OMITTED] T7640.041

[GRAPHIC] [TIFF OMITTED] T7640.042

[GRAPHIC] [TIFF OMITTED] T7640.043

[GRAPHIC] [TIFF OMITTED] T7640.044

[GRAPHIC] [TIFF OMITTED] T7640.045

[GRAPHIC] [TIFF OMITTED] T7640.046

[GRAPHIC] [TIFF OMITTED] T7640.047

[GRAPHIC] [TIFF OMITTED] T7640.048

[GRAPHIC] [TIFF OMITTED] T7640.049

[GRAPHIC] [TIFF OMITTED] T7640.050

[GRAPHIC] [TIFF OMITTED] T7640.051

[GRAPHIC] [TIFF OMITTED] T7640.052

[GRAPHIC] [TIFF OMITTED] T7640.053

[GRAPHIC] [TIFF OMITTED] T7640.054

[GRAPHIC] [TIFF OMITTED] T7640.055

[GRAPHIC] [TIFF OMITTED] T7640.056

[GRAPHIC] [TIFF OMITTED] T7640.057

[GRAPHIC] [TIFF OMITTED] T7640.058

[GRAPHIC] [TIFF OMITTED] T7640.059

[GRAPHIC] [TIFF OMITTED] T7640.060

[GRAPHIC] [TIFF OMITTED] T7640.061

[GRAPHIC] [TIFF OMITTED] T7640.062

[GRAPHIC] [TIFF OMITTED] T7640.063

[GRAPHIC] [TIFF OMITTED] T7640.064

[GRAPHIC] [TIFF OMITTED] T7640.065

[GRAPHIC] [TIFF OMITTED] T7640.066

[GRAPHIC] [TIFF OMITTED] T7640.067

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 27, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T7640.068

[GRAPHIC] [TIFF OMITTED] T7640.069

[GRAPHIC] [TIFF OMITTED] T7640.070

[GRAPHIC] [TIFF OMITTED] T7640.071

[GRAPHIC] [TIFF OMITTED] T7640.072

[GRAPHIC] [TIFF OMITTED] T7640.073

[GRAPHIC] [TIFF OMITTED] T7640.074

[GRAPHIC] [TIFF OMITTED] T7640.075

[GRAPHIC] [TIFF OMITTED] T7640.076

[GRAPHIC] [TIFF OMITTED] T7640.077

[GRAPHIC] [TIFF OMITTED] T7640.078

[GRAPHIC] [TIFF OMITTED] T7640.079

[GRAPHIC] [TIFF OMITTED] T7640.080

[GRAPHIC] [TIFF OMITTED] T7640.081

[GRAPHIC] [TIFF OMITTED] T7640.082

[GRAPHIC] [TIFF OMITTED] T7640.083

[GRAPHIC] [TIFF OMITTED] T7640.084

[GRAPHIC] [TIFF OMITTED] T7640.085

[GRAPHIC] [TIFF OMITTED] T7640.086

[GRAPHIC] [TIFF OMITTED] T7640.087

[GRAPHIC] [TIFF OMITTED] T7640.088

[GRAPHIC] [TIFF OMITTED] T7640.089

[GRAPHIC] [TIFF OMITTED] T7640.090

[GRAPHIC] [TIFF OMITTED] T7640.091

[GRAPHIC] [TIFF OMITTED] T7640.092

[GRAPHIC] [TIFF OMITTED] T7640.093

                                 <all>

</pre></body></html>
